                                          NATIONAL SCIENCE FOUNDATION               "



                                              ARLINGTON, VA 22230




        O f f i c e of
    Inspector G e n e r a l



I   MEMORANDUM
                    DATE:   April
                    FROM:                                          t
       ..........            --
                             .  --   ..........
                                                              .        ......-.          .......   .   _
                    VIA:                  Special Agent - in-Charge
                            Investigations Section
                                                                                  d Misuse of Funds at

                     TO:    Case No. I94030012

    On February 24, 1994 Special Agent                                                  of the Federal
    Bureau of Investigation (San
                                                  NSF grantee in


    source also alleged that         billed the grant at ieast $50,000
    for work which he               formed, that            and
    overcharged their salaries to the grant, and that required




                                                                                    -
    testing was not completed. The grant under which- these actions
    allegedly occurred was no.         .
    We examined NSF1s proposal an     ward documentation for grant no.
           , then interviewed Ms. h    a   n   d Mr.
                     accountants who performed the Janua ,       -au
                       the period June 1, 1992 through June 30, 1993).
    They stated that they found no evidence of misuse of funds, but did
    find questionable costs totaling approximately two-thirds of all
    claimed expenses. The bulk ($114,368) of these questioned costs
    were the salaries of l a n d               for which there was no
    documentation. Ms.        provided us w l h the documentation from
    the audit, along with-sponses          to questioned costs.
    We interviewed several persons familiar with            work on the
    grant, including the NSF program officer, a current co-PI,a former
    co-PI, and the subcontractor responsible for software testing.
    These interviewees were unaware of any wrongdoing b y m f f icials,
          e program officer, Dr.                   , was satisfied with
          progress on the project                   I did state that she
                 -
ended her affiliation with the project in 1992 because of
"questionableubusiness practices on a previous state-funded
including. incorrect charges and spending outside of budget
categories, but she was unaware of any current improprieties.
 On March 22, 1994, with the assistance of S/A ,                      we
 int wiewed Ms.
d f f i c e s in             ~~vk2~aheQjg
                             Mr.                        ookkeeper at the
                                                           intained that
 all em~loveehou7s-an alaries c arsed to the srant were correct.
 They siat'ed that -timekeeping          Cecords wer; poorly maintained
 because they were unaware of their obligations as grantees, but the
 reconstructed timecards signed by employees prior to the audit
 accurately reflected hours worked. They also stated that all
 officials1 salaries gand
 cou1d - not -pkOdu-ce--
                         n hours   were correctly
                             d-o-CCumument-'
                             -              --- -
                                                                   h
                                                    charged, though t ey
                                      atlon othzr- tha-n--certlTPcat-ions-
 signed immediately prior to the audit. On April 2, 1994, 0
de
 and
 divorp'                us with a notarized statement summarizing their
 statements during the interview. This notarized statement agreed
 with the statements given to t h e m a u d i t o r s in January,
 1994.
Our investigation found no evidence to'substantiate the allegation
of intentional misuse of funds or falsification of timecards.
However, we did confirm                    s audit findings that there
was a lack of d o c u m e n t a t w m p l o y e e work hours, a lack of
documentation on allocation of employee work hours between
different projects, and a lack of documentation on-fficialsl
hours spent on, and salary charged to, the grant. We relayed these
findings to OIG1s Office of Audit.
This case is closed.
